No. 20-5098

IN THE

SUPREME COURT of the UNITED STATES
MIKHAIL S. TSUKERMAN,
Petitioner,
v.
WESTERN COMMUNITY UNIT SCHOOL
DISTRICT NO. 12 ET AL„
Respondents.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29 and pursuant to Order List: 589 U.S. dated
April 15, 2020 relating to CoVid-19, the undersigned Petitioner certifies that
on this 25th day of August, 2020, he sent one paper copy of the above-stated
Reply Brief to the Clerk of the Supreme Court as well as serving a copy on
Respondents at the address provided by the pleadings herein both via email
and regular mail via the U.S. Postal Service in St. Louis, Missouri with
postage prepaid, to:

Thomas J. Hunter
Becker, Hoerner & Ysursa, P.C.
5111 West Main Street
Belleville, IL 62226
(618) 235-0020
tih@bhylaw.com
Executed on August 25, 2020

JjUtLait S.
MIKHAIL S. TSUKERMAN
Petitioner,
Acting Pro Se
5 Delcrest Court, apt. 104
St. Louis, MO 63124
(314)872-9545
tsukerman@sbcglobal.net

